audit report



Return to the USDOJ/OIG Home Page



Rural Domestic Violence and Child Victimization Enforcement Grant to the 
Council on Sexual Assault and Domestic Violence
and Family Crisis Centers of Northwest Iowa
Sioux City, Iowa
GR-50-99-013	
September 16, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Rural Domestic Violence and Child Victimization Enforcement Grant to the Council on Sexual Assault and Domestic Violence and Family Crisis Centers of Northwest Iowa.  The original grant was awarded in the amount of $375,375 for the period October 1, 1997 through March 31, 1999 by the Department of Justice, Violence Against Women Grants Office.  A 6-month supplemental award for $187,687 was added to bring the total award to $563,062 and to extend the grant period until September 30, 1999.  The purpose of the grant was to strengthen efforts to address domestic violence in northwestern Iowa via the collaborative efforts of the two participating agencies.   

	In general, our audit revealed that the grantee complied with the grant requirements and they had implemented or planned activities to meet the stated grant objectives.  Financial and administrative controls over funds were adequate to ensure expenditures charged to the grant were properly accounted for and transactions were accurately recorded and supported.  However, the grantee received federal reimbursement for $10,855 of unallowable costs. 
		
The details of our audit are contained in the Findings and Recommendations section of this report.  Our audit scope and methodology are described in Appendix I.